No. 20-

 

 

IN THE

Supreme Court of the United States

JANE DOE,

Petitioner,
Vv.

UNITED STATES,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,849 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 26, 2020.

Colin cncclicasn

Wilson-Epes Printing Co., Inc.
